July 13, 2021
Via E-Filing and Messenger
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Michigan v. Owen, No. 20-1607

Dear Mr. Harris:
I represent Respondent Anthony Michael Owen in the above-captioned matter. The
petition for a writ of certiorari was docketed on May 12, 2021, and the Court requested a
response on June 21, 2021. The brief in opposition is currently due July 21, 2021.
I am writing to request a 30-day extension of the time in which to file the brief in
opposition, to and including August 20, 2021. The extension is necessary because I have
only recently been retained in this matter, and because of pre-existing commitments and
the press of other business. Counsel for petitioner consents to this extension.
Should you need any additional information from me, please do not hesitate to let
me know.
Yours sincerely,

Lisa S. Blatt
cc: Jerrold Edward Schrotenboer

